1511
In The
Supreme Court of the United States
MALIA ARCIERO
Petitioner,
v.

UNITED STATES OF AMERICAN
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
-f

RECEIVED-]
MAY 1 2 2021 •
MALIA ARCIERO
Pro se Petitioner
Fed Reg No. 16101-022
FCI Victorville Medium II
Federal Correctional Institution
Satellite Camp
P.O. Box 5300
Adelanto, GA 92301

RECEIVED
APR 1 5 2021
SUPREMEfG01JRTL|E)lRK

QUESTION PRESENTED
Malia Arciero was charged with conspiring to distribute and to possess with intent to distribute
50 grams or more of meth. Two weeks prior to her trial, Arciero frantically told her then trial
counsel that she was feared losing at trial and wanted to plead out. Counsel Dubin responded by
demanded that she reject the offer and proceed to trial based on his fundamental
misunderstanding of federal law. Unbeknown to Arciero, Dubin was a state real estate attorney
with little or no experience in federal law, nevertheless, Arciero did as Dubin advised her and
rejected the offer, Arciero was later convicted on all counts as charged. Arciero does not assert
that any error occurred at the trial.
On habeas review, both the Ninth Circuit and district court despite former trial counsel’s
concession on the above undisputed facts, found that Arciero did not demonstrated a reasonable
probability that she would have accepted the plea offer had she been adequately advised, and
therefore her Sixth Amendment rights to effective assistance of counsel was not violated. Both
lower Courts also found that Arciero did not show prejudice when the district court imposed a
two level obstruction-of-justice enhancement based on sentencing counsel advising her to
withdrawing her allegations against the case agent right before sentencing. The question
presented is:
Whether this Court holding in Lafler v. Cooper, 566 U.S. 156 (2012), is still good law, and if so,
whether Arciero is entitled to relief due to defense counsels deficient advice which led to a twopoint enhancement in her impose sentence and led her to reject a favorable plea offer that
resulted in her being later convicted and sentence to a harsher sentence after a fair trial?

No.
IN THE
SUPREME COURT OF THE UNITED STATES
MALIA ARCIERO, Petitioner
v.
UNITED STATES OF AMERICA, Respondent

On Petition for Writ of Certiorari
to the United States Court of Appeals, Ninth Circuit

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT

I do hereby certify that the following persons may have an interest in the outcome of this
appeal:
1.) Court of Appeals for the Ninth Circuit
2.) Malia Arciero, the Defendant-Petitioner
3.) Marion Percell, Chief of Appeals, U.S. Attorney Office District of Hawaii
4.) Susan Oki Mollway, United States District Court Judge
5.) Thomas M. Otake, former trial counsel for the Petitioner
6.) United States of America

AL

<!

:

J*

\

!

i

• ■

r
I

■£,

*!► '

t;
S

*1

.1

PARTIEES TO THE PROCEEDING

i

There are no parties to the proceedings other that those listed in the caption. The Petitioner is
Malia Arciero, a pro se inmate. The Respondent is the United State of American.

OPINIONS BELOW

;■

r

The Opinion of the Ninth Circuit is unpublished. Pet. App. 1 a-5a. The order of the United States
denying the petition is published. Pet. App. 7a- 42a. The decision of the Ninth Circuit affirming
Arciero’s conviction is unpublished. Pet. App. 44a- 46a. The District Court’s order on attorne| •’
Otake’s motion to withdrew as counsel of record. Pet. App 51a
'
1 r

I1

\

JURISDICTION

■

t; ■':
i

i

!

i •

The opinion of the Ninth Circuit filed November 06, 2020, affirmed the decision of the Hawaii
District Court denying Arciero habeas relief. Pet. App. la-5a. Petitioner invokes the jurisdiction
of this Court under 38 U.S.C. 1254(1).
4

CONSTITUTIONAL STATUTORY, AND REGULATORY PROVISIONS INVOLVED
!

The Counsel Clause of the Sixth Amendment of the United States Constitution provides:

1

. $»

j

“In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by Jin '• ■ .1:
impartial jury of the State and district wherein the crime shall have been committed, which | y
ti
district shall have been previously ascertained by law, and to be informed of the nature and calise*
•i
of the accusation; to be confronted with the witnesses against him; to have compulsory process ;
• 2
!
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defense.” ;
•t

4

i

i

i

i

The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), Pub. L. 104-132, 104,';1
110 Stat. 1214, 1219 (codified at 28 U.S.C. § 2255), provides in relevant part:
'

*

■

■ r

(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of the claim(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in State court proceedings.

PRELIMINARY STATEMENT
This is a case of national importance because the ruling of the court of appeals for ninth circuit
has invalidated parts of a defendant’s Sixth Amendment rights in that circuit. Allowing such a
fundamental flaw ruling to stand will undoubtedly create a split among the lower courts. This
Court should hear this case.
As a preliminary matter, Ms. Arciero avers the Court that she is not an attorney; has no legal or
professional skills and training pertaining to the preparation and filing of legal motions,
documents and or memorandums. Ms. Arciero gives notice of such limitations and prays this
Court to construe her pleadings liberally in light of this Court holding in Haines v. Kernes, 404
U.S. 519(1972).

INTRODUCTION
There were two critical Glover/Cooper errors by former defense counsels that was at the heart
and soul of Ms. Arciero’s ineffective assistance of counsel claims which are not in dispute. Frist,
whether former disbarred counsel Dubin threats and bulling of Arciero into rejecting a favorable
plea offer constituted ineffective assistance of counsel, and second, whether former sentencing
counsel Otake’s advice to withdraw her sexual assault rape allegation against the arresting agent
Ryan Faulkner, constituted ineffective assistance, in light of the district court’s two-level
enhancement based on that withdrawal. Arciero argued that the two Glover/Cooper errors
entitled her to relief, and the Ninth Circuit held that they do not. Thus, it is the correct
application of governing law, not the facts of the case which are in dispute in this criminal
appeal.
28 U.S.C. 2255(d) required the Ninth Circuit to limit its review to whether the district court
adjudication contravened “clearly established” Supreme Court law. This Court has established
that a criminal defendant in Arciero’s situation is prejudiced in a way that is cognizable under the
Sixth Amendment. Neither Strickland v. Washington, Glover v. United States nor Lafler v.

Cooper, two cases relevant to the issue, would support such a bad decision by the lower courts.
With all due respect to the lower courts, the prejudice requirements of both those cases,
authorizes relief to circumstances where counsel’s deficient advice led to a defendant rejecting a
favorable plea offer and/or the imposition of a harsher sentence.
In this case, the Ninth Circuit held that, as a matter of constitutional law, even if counsel
deficiently advises his client to reject a plea deal, there is no violation of the Sixth Amendment if
the defendant thereafter receives a fair trial. And while it is true that a criminal defendant in this
situation may receive a harsher sentence than he or she would have but for their counsel's
deficient performance, but because that injury does not stem from any unfairness in the trial that
resulted in the harsher sentence, it is not actionable under the Sixth Amendment.
In a nutshell, the lower courts believe that the Constitution guarantees a criminal defendant a fair
trial or fair plea, and Ms. Arciero had a fair trial. And while the Constitution also guarantees
effective counsel, it does not require a federal court of appeals to overturn a conviction based on
a fair trial because effective counsel would have procured a more favorable plea. This decision
by the Ninth Circuit goes against everything this Court holding in Cooper constitutionally stand
for. Accordingly, this Court should hear this case.

BAIL STATUS
Petitioner- Malia Arciero is serving her sentence at FCI Victorville Medium II, which is a
Federal Satellite Prison Camp. Her projected release date is August 10, 2026.
STATEMENT OF THE CASE
A. The Facts of the Crime
Defendant-Petitioner Malia Arciero (“Arciero”) and her sister, Keala (“KeKe”) Arciero, were
originally arrested by law enforcement officers on April 30, 2013, while they were in the process
of making a delivery of a pound of methamphetamine, but they were released without charge.
Subsequently, Arciero actively started to cooperate with law enforcement, along with working
with Homeland Security Investigations (HIS), and Special Agent Faulkner and other agents in
connection with an ongoing investigation of others.
B. Federal Court Proceeding
A federal criminal complaint against both Arciero and Keala Arciero was filed on October 24,
2013. Docket Sheet, ER 543; Criminal Complaint, SER 262. The Affiant was Special Agent
Ryan Faulkner.
Arciero initially retained a seasoned criminal defense attorney, Michael Green, to represent her.

Attorney Green advised her to continue cooperating with the government. Attorney Green also
negotiated a plea deal that would allowed her to avoid a ten-year mandatory minimum sentence
if convicted, but Arciero rejected that deal and continue cooperating with the government in
hope of obtaining a better offer down the road.
On November 21, 2013, a grand jury returned a two-count indictment against Arciero and her
sister, charging them, in Count 1, with conspiring to distribute and to possess with intent to
distribute 50 grams or more of methamphetamine in violation of 21 U.S.C. 846, 841(a)(1),
841(b)(1)(A) and, in Count 2, with distributing a quantity of methamphetamine in violation of 21
U.S.C. 841(a)(1) and 841(b)(1)(C).
On November 25, 2013, Gary Victor Dubin, Esq, entered an appearance for Arciero as counsel
of record, replacing her former attorney, Michael Jay Green, Esq. Arciero retained Gary Gubin
because without attorney Green knowledge, Dubin had pulled Arciero to the side and told her
that he could get her charges dropped entirely based on his experience in the federal justice
system.
The original indictment was superseded in June 2014, with a four-count indictment base off
information accumulated during Arciero’s Cooperation. In that First (and last) Superseding
Indictment, the original Count 2 became Count 4, and a new Count 2 and 3 were added, which
charged Malia Arciero alone with distribution of a quantity of methamphetamine on one date and
distribution of 50 grams or more of methamphetamine on another date. See the First Superseding
Indictment.
Recognizing and feeling that she had been play by the government with the adding of additional
charges, Arciero told attorney Dubin that the case agent who was her cooperation handler, Agent
Ryan Faulkner, had sexually abused her after she had gotten arrested and again while she was
under his supervision during pre-trial.
Thereafter, in August 2014, Dubin filed a series of pretrial motions, including a motion to
dismiss based upon outrageous government conduct and/or entrapment. In support of these
motions, Dubin submitted declarations of Ms. Arciero. The district court conducted an
evidentiary hearing on October 23 and 24, and November 24, 2014, at which a number of
government witnesses testified. After conferring with defense counsel, Arciero decided not to
testify, and the defense withdrew the motion to dismiss based upon outrageous government
conduct and/or entrapment and withdrew the declaration signed by Arciero that had been
submitted in support of the two other pending motions.
Thereafter, the district court denied the motion to suppress Arciero’s typed confession and
denied the motion to suppress other seized items. However, the district court did grant Ms.
Arciero request to argue entrapment as a defense during trial based on the evidence presented
during the hearings.

Also relevant to this review, during oral argument in the Ninth Circuit, the Panel asked the
Government for an update into Arciero’s 6-year old allegation against the agent, and counsel for
the government stated that she knew of no final investigation into the 6-year old allegation.
As noted above, Arciero initially hired Dubin to go to trial. But two weeks prior to the start of
trial, Arciero’s codefendant (her sister) pleaded guilty. At that time, Arciero herself told former
trial attorney Dubin that she also wanted to change her plea and no longer wanted to go to trial.
Dubin then advised her not to change her plea, telling her that she would have to “accept a
sentence of twenty year at the mercy of the court”. This information was untrue, Dubin also
added that she had to cooperate against other if she pled guilty (even though that was not
accurate). Arciero reminded Dubin that she had already fully cooperated and provided extensive
information to the government. Dubin responded by telling her that the government was not
offering her anything anymore, but Arciero persisted in asserting that she wanted to change her
plea anyway. Dubin then responded by berating her as having a “tantrum” and “crying” by
telling her it was unlikely she would receive “anything but the maximum sentence,” and by
bragging that he had been in trial for two weeks in another drug case, which “everyone said was
impossible to win”, but two days of deliberations the jury was still unable to make a decision,”
an example of his skill that her bellyaching to shame.”
The government, however, did offer Arciero another new plea offer. But on the foregoing advice
from attorney Dubin, supplemental with his advice that she should not “run away ... like a
spoiled brat” from her pending dismissal and suppression motions, Arciero rejected the new plea
offer. And even after he withdrew the dismissal motion and Arciero’s declaration about the
sexual allegations, Dubin still advised Arciero to proceed to trial, which she agreed to do.
The charges against Arciero were tried in a six-day jury trial beginning on December 10, 2014
and ended on January 7, 2014. Arciero presented her case but did not testify. On the second day
of deliberations, she was convicted of all four counts.
Arciero thereafter hired a different attorney, Thomas Otake, to represent her at sentencing. The
first thing Attorney Otake did when he took over the case was to advise Arciero that she must
formally retracted her sexual assault allegations against the case agent. Doing this Otake
explained would give her credibility with the sentencing judge. Arciero explained that she did
not wanted to do that because the allegations against the case agent were true and that doing so
would make her look like a liar to everyone. Attorney Otake assisted that she had to trust him
because he was the lawyer, and he knew what he was doing. Arciero very reluctantly did as
Otake asked.
After Arciero formally retracted her sexual assault allegation, due to pressure placed on her from
new and now her third trial counsel, the district judge went ballistic on her and called Ms.
Arciero a manipulative compulsive liar, and thereafter sentenced Arciero to 172 months on each
of the four drug counts to be served concurrently. Arciero final sentence contain a two-level
obstructive of justice enhancement based on Arciero’s declaration about the sexual assault

allegation. Arciero filed a timely notice of appeal to her conviction, and the Ninth Circuit
affirmed it in an unpublished memorandum opinion. See C.A. No. 15-10479.

C. 2255 Proceedings
After an unsuccessful direct appeal, Arciero moved to vacate her conviction and sentence by
raising several ineffective assistance of counsel claims in a timely 2255 motion. In that motion,
Arciero argued that former trial counsel provided deficient performance, (1) in advising her to
testify at the pretrial detention hearing without first advising her of the potential sentencing
consequences should the court find her testimony untruthful, (2) in filing her declaration against
the ICE agent and then later withdrawing that same declaration which made her look like a liar to
the district court about the sexual assault allegations, and (3) in harassing and advising her to
reject the plea offer based on counsel’s misunderstanding of federal law. However, the habeas
district court rejected all of Arciero’s ineffective claims reasoning that her “faulting her attorney
for having believed her lies ... is not a sound basis for an ineffective assistance claim.” See
Order at 1.
More specifically, the district court ruled that former counsel Dubin’s performance was not
deficient with regard to the pretrial detention hearing and the motions, because he [attorney
Dubin] relied on what Arciero had told him. See Order at 25, 28. The district court further ruled
that Dubin’s performance was not deficient with regard to running an entrapment defense
because the court allowed the defense to go to the jury. See Order at 28. Finally, the district court
in totally disregarding everything presented and conceded during the evidentiary hearing ruled
that former disbarred attorney Dubin’s performance was not deficient in advising Arciero to go
to trial “because she [Arciero] was committed to going to trial based on her allegations that the
case agent had sexually assaulted her.” See Order at 31. The district court never explain why this
line of defense would somehow show or for that matter prove to the jury that Arciero wasn’t
guilty of possessing and distribute meth?
The district court did not issue a certificate of appealability, erroneously concluding that
“[reasonable jurists would not find this court’s assessment of the merits of Arciero’s
constitutional claims debatable or wrong.”
Following that denial, and with Ms. Arciero being totally fed up with attorney Otake’s
incompetence during sentencing and on her direct appeal, along with retained counsel’s failure to
call, text, write her or provide copies of pleading file on her behalf for over two year, Arciero
through love ones and family members instructed attorney Otake to petition the Ninth Circuit for
a COA on whether in light of this Court holdings in Strickland v. Washington, 466 U.S. 668
(1984), Glover v. United States, 531 U.S. 198 (2001), and Lafler v. Cooper, 566 U.S. 156
(2012), could reasonable jurists find the district court’s assessment of Arciero’s constitutional
claims debatable or wrong.

Attorney Otake filed the request for a COA as instructed but failed to include Glover or Cooper
as Supreme Court authority. The Ninth Circuit nevertheless did issue the COA on September 30,
2019 as to the issue of:
“whether trial counsel was ineffective in violation of appellant’s Sixth Amendment right to
counsel.” See Pet. Appendix at 65a.
Several months later, and still with no form of communication between herself and counsel
Otake, a family member informed Arciero of the court of appeals had recently issued a COA
with respect to her ineffective assistance counsel claims. Arciero again instructed all of her
family member to call and ask Otake not to forget to include Glover and Cooper in his opening
brief. Oral argument was scheduled for October 21, 2020. Nevertheless, Arciero then filed a
series of motions in the district court attacking the legitimacy of her detention in light of the
COVID-19 ongoing pandemic. In respond to Arciero filings, Attorney Otake filed a motion to
withdraw as counsel of record. The motion was granted by the district court. However, Attorney
Otake did show up on time for oral argument in the Ninth Circuit.
At the Oral argument, one of the first question asked by the Panel was “in what ultimate universe
could the Court grant Arciero the relief to which she was seeking,” because the Panel stated that
it did not know of any nor did it see any such authority in Otake’s pleadings to the Court.
Attorney Otake then responded that given the facts of the case, concessions during the
evidentiary hearing in the district court, that this Court holding in Cooper controlled the
disposition of Arciero’s appeal of the district court’s denial of her 2255 motion.
Without addressing Arciero’s Cooper claim and/or claims, a Panel of the Ninth Circuit issued a
memorandum opinion affirming the district court’s denial of Arciero’s 2255 motion. Arciero
then moved pro se and filed a notice/motion for rehearing and en banc rehearing consideration
on the grounds that the Panel’s opinion and order was;
“Contrary to the decision of the Supreme Court in Lafler v. Cooper, 566 U.S. 156 (2020)” The
pro se motion/notice was docketed in the court of appeals on November 11, 2020, at DKt, 30.
Without citing any authority as to why the Panel got the case wrong, attorney Otake also filed a
motion requesting rehearing and en banc rehearing consideration.
On December 09, 2020, the full Court of the Ninth Circuit issued an order denying Arciero’s
request for rehearing and en banc consideration. The order made no mention of Arciero’s Cooper
claims, or the Panel’s failure to adhere to settled Supreme Court precedent nor Arciero;s pro se
notice/motion. Therefore, this petition for writ of certiorari ensue.

REASONS FOR GRANTING THE PETITION

5

The opinion of the Ninth is contrary to this Court dearly established entitlement to relief
for ineffective assistance of counsel during plea bargain negotiations when the defendant is
later convicted and sentenced pursuant to a fair trial.
As stated above, during oral arguments, the Panel asked attorney Otake to explain to the courtdn
what ultimate universe could the Court grant Arciero the relief to which she was seeking,
because attorney Otake opening brief was devoid of any such authority. Attorney Otake
;
responded that based on the facts of the case and in according with this Court holding in Lafler v.
Cooper the court of appeals could and should grant Arciero habeas relief on her ineffective
assistance of counsel claims with respect to trial counsel advice to reject the plea offer. See als>
Arciero’s pro se motion DKt 30, filed in the court of appeals following the district court order!
granting attorney Otake’s motion to withdraw as counsel. See Appendix ,at 49.

r

'-

Keeping in mind that Lafler v. Cooper, 566 U.S. 156 (2012), was a United States Supreme i;
Court case in wrhich die Court clarified the Sixth Amendment standard for reversing convictions..
due to ineffective assistance of counsel during plea bargaining. The Court ruled that when a tlawyer's ineffective assistance leads to the rejection of a plea agreement, a defendant is entitled
to relief if the outcome of the plea process would have been different with competent advice. In
such cases, the Court ruled that the Sixth Amendment requires the trial judge to exercise
S
discretion to determine an appropriate remedy.
Without any real consideration of Arciero’s Glover/Cooper arguments, and that her ineffective
assistance claim was control by this Court holding in Lafler v. Cooper, the panel and then full i;
court of the Ninth Circuit concluded that Dubin’s advice to Arcierio when she indicated she
wanted to plead guilty (even without a plea agreement) was not prejudicial because, having
received his advice to go to trial, she changed her mind, rejected a plea agreement, and agreed to
“cooperate” (his word) with him by going to trial.
1. As to Dubin’s advice when Arciero told him she wanted to plead guilty, the lower court
held that:

v

s -

“Arciero fails to show that Dubin’s November 2014 emails regarding the merits of going to trial
prejudiced her. After rejecting the first plea agreement and discharging her prior counsel, Arciero retained
Dubin to go to trial. No plea agreement was available when the two corresponded in mid-November 2014,
and Arciero subsequently rejected the plea agreement the government offered in late November 2014.
Arciero was not prejudiced by Dubin’s counsel because she desired to go to trial and decided to reject the
then-available plea agreements.”
Appendix, slip op. at 5.
The emails between Dubin and Arciero are at ER2 at 226-250 of the lower court’s records. ,
When her codefendant (and sister) decided to plead guilty to avoid 14 years’ imprisonment,
Arciero sensibly told Dubin that “it might be best to do the same before I get even more time :
than that.” ER2 at 234. Dubin responded by telling Arciero that she would have to “accept a

U

sentence of twenty years at the mercy of the court” if she pled guilty. Id. Dubin’s response was,
of course, wrong; pleading guilty would have produced a lower guideline range, and the starting
point for sentencing would have been that guideline range, not the statutory maximum of 20
years. Given the evidence against her and a codefendant’s admissions of guilt, reasonable
defense counsel would have agreed with Arciero that pleading guilty rather than going to
trial was the thing to do to get a lower sentence than she would get if she went to trial.
Arciero’s subsequent responses to Dubin reflected that she no longer believed she could “beat
the charges” (because “there is so much evidence against me”), that she no longer wanted “to
take a gamble at going to trial,” that she correctly recognized that “the further we continue on the
worse it will be for me,” that she acknowledged her accusations against the case agent were not a
ticket to dismissal or acquittal (“[mjaybe there was government misconduct that happened after
the fact that I got busted with all those drugs in my car, but that does not erase the fact that they
got me in the way they did”), and that she was willing to plead guilty without a plea agreement
(“[y]ou don’t need an offer to change your plea, though right?”). ER2 at 241. Reasonable defense
counsel would have agreed with all of this and encouraged her to follow through on pleading
guilty, even without a plea agreement.
Here’s how Dubin, in a midnight email, responded to Arciero’s remarks indicating she wanted
to, request for advice on, pleading guilty:
When you retained me we had a sure-fire game plan. Nothing has changed—NOTHING—except your
emotional tantrums
Your Sister takes a plea, yet you told me that she does nothing without your
doing. You tell me it is final and too late to change, yet that too is not true, there are moreover no
deadlines to decide by this Friday, and nothing is in concrete until tomorrow Friday at 2:30 p.m.
[(referring to the time set for her sister’s change-of-plea hearing)]. You cry that the situation for you is
hopeless, when in truth it is not unless you continue to make it so, but it might be if your Sister testifies
against you depending on what she makes up to avoid prison. I am in a drug trafficking jury trial for the
past two weeks in a case that everyone said was impossible to win, yet after two days of deliberations the
jury is still unable to make a decision and I was able to block crucial prosecution evidence from being
seen by the jury . Win or lose, that example puts your bellyaching to shame. Tell that to my client in that
case and he would laugh in your face.[2 ] Tomorrow there is a 2:30 p.m. hearing wherein your Sister will
be asked to change her please [(sic)] and to “cooperate.” She will not have done so until the Court
approves and she could change her mind at anytime by the 2:30 p.m. hearing. But again you are filled
with erroneous assumptions, like a plane without a pilot, and you must know [where] that leads. You talk
about wanting a plea deal. 1 have asked the prosecutor several times and each time the idea was brushed
aside. Ask yourself this: Why would they give you anything but the maximum sentence now that they
believe they have your Sister to testify against you and to name others? The irony in all of this is that you
mistakenly think that your situation is hopeless just because what has happened in the past. There is a new
player in town however: Me.

ER2 at 239-240 (typography emended). A few days later, Dubin again assured Arciero that he
would win her case: “We go to trial! To win!” ER2 at 231. Only after receiving this (and more of
the same) unreasonable “advice” did Arciero agree, as Dubin put it, to “cooperate” with him in

going to trial and give up her inclination to plead guilty without a plea agreement. ER2 at 231
(she agreed, “let’s do it and win!”).
Following the unreasonable advice to go to trial after correctly questioning whether a guilty plea
would yield a better sentence cannot be why such advice is not prejudicial. That Arciero, after
voicing her desire to plead guilty even without a plea agreement, was persuaded by and followed
Dubin’s unreasonable advice to go to trial is the reason why his advice was prejudicial.
Especially in case, such as this one, in which there was overwhelming evidence against her that
could not reasonably be contested, in which there was no persuasive trial defense to put before
the jury, and in which there was every reason to do what could be done to minimize her eventual,
unavoidable imprisonment sentence. As in many routine federal drug cases, from the moment of
her arrest the question was never whether, but for how long, Arciero would go to prison.

2. The Hawaii Supreme Court has disbarred former defense counsel Dubin.
See Dkt Entry 24.
He had little federal court experience when he counseled Arciero, which consisted merely of
himself being successfully prosecuted for fraud, appearing as a witness in a revocation hearing,
and representing a criminal defendant (the one he guided into a life sentence) contemporaneously
with his representation of Arciero. DktEntry 8 at 33; DktEntry 20 at 19-20. His emails to Arciero
evince no understanding of the guidelines, the federal sentencing scheme, or the caselaw
governing federal sentencing, much less a proper understanding of them. ER2 at 226-250. He
told Arciero she had nothing to lose by bringing her accusations against a government agent to
the district court’s attention. ER2 at 238. He told her she had everything to lose by pleading
guilty. ER2 at 234, 240. Had he not decided to bring her sexual assault accusations to the district
court’s attention, her sentence would, at a minimum, have been 52 months less than it was. ER3
at 533-536. And had he correctly advised her to plead guilty when she indicated she wanted—
even without a plea agreement—to plead guilty, she would not have gone to trial, her guideline
range and sentence would have been, again, lower.
This was clearly a bad ruling by the lower court in light of this Court’s well settled holding in
Glover and Cooper. Accordingly, the Court should grant the requested Writ of Certiorari to the
Ninth Circuit.
The panel also held that Arciero failed to establish prejudice. The pane! concluded that
Dubin’s use of the sexual assault accusations was not prejudicial because the district
court’s remarks at sentencing focused on Arciero’s accusations and her post-trial, pre­
sentencing retraction of them, her “lies.” At 534-539.
As to former trial counsel Dubin’s unreasonable decision to bring Arciero’s sexual assault
accusation to the district court’s attention, here is what the lower courts had to say:

Arciero argues that Dubin failed to advise her of the negative consequences of using the allegations, filed
ineffective pretrial motions, and failed to question Arciero about the allegations. However, Arciero’s
argument merely faults Dubin for believing her. The record clearly illustrates that Arciero’s false
allegations and her last-minute retraction—not Dubin’s conduct—guided the district court’s sentence.
Even if otherwise, Arciero cannot show prejudice because the district court imposed the obstruction-ofjustice enhancement based on three separate instances of Arcierio’s untruthfulness, not just her false
allegations against the case agent. Moreover, Arciero conceded that she does not assert a failuretoinvestigate claim, and even if she did, she fails to explain why Dubin should have doubted her sexual
assault allegations.
Appendix, slip op. at 4a-5a.
Dubin’s professed belief that Arciero’s unsubstantiated accusations against the agent were
truthful was not the problem here. What was the problem, and what the panel’s remarks entirely
overlook, is that Arciero’s accusations were made within the confines of the attorney-client
privilege and that reasonable defense counsel would have ensured that they remain cloaked in
that privilege, not weaponized them in irrelevant and meritless ways that, with all too obvious
foreseeability, would not benefit Arciero. Reasonable defense counsel, that is, would have
recognized that the question was not whether counsel believed her allegations (nor, for that
matter, whether they were true), but whether the judge presiding over her criminal case was
likely to find them (standing alone, as Dubin left them standing) credible. In a case such as this
one—in which the agent in question was a repeat player in the local federal criminal justice
system, in which the government’s evidence against Arciero was overwhelming and largely
uncontestable,l and in which the sexual assault accusations had nothing to do with Arciero’s
guilt or innocence, nor anything to do with the government’s investigation, arrest, and indictment
of her—there was no reasonable possibility that the presiding judge would find her credible and
the agent she accused not, much less do so and then also dismiss the case or suppress evidence
on the basis of an agent’s tangential post-crime assault of Arciero.
Balanced against the certain harm that would befall her at sentencing if the judge did not believe
Arciero’s accusations (not only under the guidelines but under 18 U.S.C. §3553(a)’s sentencing
factors too), reasonable defense counsel would not have risked using such bare accusations at all
in Arciero’s criminal case.
Arciero’s ineffective assistance claim here does not differs from the ineffective assistance claim
in Glover. The issue presented in Glover was the following: assuming arguendo that the trial
court erred in applying the Sentencing Guidelines and the legal error increased petitioner’s
prison sentence by at least 6 months, would the error constitute prejudice under Strickland if it
resulted from counsel’s deficient performance? Glover, 531 U.S. at 200. The Supreme Court
found that it would. Holding that:

The Seventh Circuit was incorrect to ...deny relief to persons attacking their sentence who might show
deficient performance in counsel's failure to object to an error of law affecting the calculation of a

sentence because the sentence increase does not meet some baseline standard of prejudice. Authority does
not suggest that a m inimal amount of additional time in prison cannot constitute prejudice. Quite to the
contrary, our jurisprudence suggests that any amount of actual jail time has Sixth Amendment
significance... We hold that the Seventh Circuit erred in engrafting onto the prejudice branch of
the Strickland test
Consistent with this clear holding, the Supreme Court has since cited Glover as “precedent” that
serves to “establish that there exists a right to [effective assistance of] counsel during sentencing
in ... noncapital cases” See Lafler v. Cooper, 132 S. Ct. 1376, 1385-86 (March 21, 2012) (citing
Glover v. U.S., 531 U.S. 198, 203-204 (2001)). The Lafler Court explained that “[e]ven though
sentencing does not concern the defendant’s guilt or innocence, ineffective assistance of counsel
during a sentencing hearing can result in Strickland prejudice because ‘any amount of
{additional] jail time has Sixth Amendment significance.’” Id. (citing Glover, supra, at 203).
And here’s the prejudice. At sentencing, the district court relied entirely and solely on the sexual
assault allegations and Arceiro’s retraction of them to increase her sentence from 120 months (if
not something less) to 172 months, not just to support a 2-level upward enhancement to her
guideline range for obstruction, (court remarks that, but for her sexual assault accusations, the
court would have likely sentenced Arciero to something below 120 months); DktEntry 8 at 2829; DktEntry 20 at 18-19. Had Dubin not irrelevantly questioned Arceiro about the allegations in
a pretrial release revocation hearing and had he not attached them to three meritless motions, the
district court never would have heard about them. Had the district court not heard about them,
there would have been no what everyone deems to believe to be so called “lies” about the case
agent. And none of the things that the district court relied upon to increase Arceiro’s sentence
from (at least) 120 to 172 months would have been in the record, nor before the court at
sentencing. That is were the prejudice lies, even if one thinks (as the panel did) that there was at
least one other instance of obstruction on which to base a guideline obstruction-of-justice
enhancement. Fifty-two months’ imprisonment, not just a 2-level guideline enhancement, is
what’s prejudicial. Fifty-two months that would not have been added to her sentence had Dubin
not uncloaked her accusations against the agent and brought them, repeatedly, to the district
court’s attention in public filings and open court.
This Court should grant this petition to correct the mistaken view of the record and Arciero’s
claim that informed the panel’s prejudice ruling on this aspect of her claim. Upon doing so, this
Court should hold that Dubin’s decisions to bring Arciero’s accusations to the district court’s
attention—repeatedly and publicly—during her criminal case was prejudicial because, had he not
done so, the district court would not have known about the accusations (nor would have others)
and, consequently, the court would not have increased Arciero’s sentence by (at least) 52 months
because of the accusations. Accordingly, this Court should reverse the judgment of the Ninth
Circuit and remand the matter back to the district court so that the government can reoffer the
plea offer, thereby allowing Arciero the opportunity to accept the offer which was lost through
ineffective assistance of counsel over six year ago.

CONCLUSION
The Petition for writ of certiorari should be granted, and the decision of the Ninth Circuit should
be reversed.

Respectfully submitted.

/jYIaIla (X/U
Malia Arciero
Fed Reg No. 16101-022
FCI Victorville Medium II
Federal Correctional Institution
Satellite Camp
P.O. Box 5300
Adelanto, CA 92301

